<html>
<title> - RECENT DEVELOPMENTS IN NORTH KOREA</title>
<body><pre>[Senate Hearing 105-842]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-842


 
                   RECENT DEVELOPMENTS IN NORTH KOREA

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 1998

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                    U.S. GOVERNMENT PRINTING OFFICE                    
50-901                     WASHINGTON : 1998



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

             SUBCOMMITTEE ON EAST ASIAN AND PACIFIC AFFAIRS

                    CRAIG THOMAS, Wyoming, Chairman
BILL FRIST, Tennessee                JOHN KERRY, Massachusetts
RICHARD G. LUGAR, Indiana            CHARLES S. ROBB, Virginia
PAUL COVERDELL, Georgia              RUSSELL D. FEINGOLD, Wisconsin
CHUCK HAGEL, Nebraska                DIANNE FEINSTEIN, California

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Campbell, Kurt M., PH.D., Deputy Assistant Secretary of Defense, 
  Asian and Pacific Affairs......................................     5
    Prepared statement...........................................     6
Gallucci, Robert, Dean, School of Foreign Service, Georgetown 
  University, Washington, D.C....................................    21
Kartman, Charles F., Special Envoy, Korean Peace Talks, 
  Department of State............................................     3

                                Appendix

Additional Questions for the Record Submitted by the Committee to 
  Ambassador Kartman.............................................    29

                                 (iii)




                   RECENT DEVELOPMENTS IN NORTH KOREA

                              ----------                              


                      THURSDAY, SEPTEMBER 10, 1998

                U.S. Senate Subcommittee on
                    East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:08 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Craig Thomas, 
chairman of the subcommittee, presiding. Present: Senators 
Thomas, Kerry and Robb.
    Senator Thomas. I believe we will go ahead and begin. Thank 
you all for coming.
    I have been chairman of this Subcommittee on East Asian and 
Pacific Affairs for almost 4 years now. During that time, the 
subcommittee has held more meetings on North Korea than any 
other single country, other than China. In fact, our last 
hearing was on North Korea.
    In that time, I guess I could say that I continue to be 
amazed and concerned by the unpredictable and unbalanced nature 
of the regime in Pyongyang. Despite widespread starvation and 
disease, the government continues to adhere the very economic 
policies that have led to this condition in the first place. 
Despite worldwide repudiation of communism, the government 
continues to revolve around a Stalinist cult of personality, 
devoted to Kim Jong-il. Despite international norms and 
conventions, the DPRK continues to sell nuclear and 
conventional missile technology to rogue nations such as Iraq 
and Libya, in violation of the Nuclear Nonproliferation Treaty.
    In spite of the terms of the agreed nuclear framework with 
the United States, there continues in North Korea to be 
developed a program aimed at producing nuclear materials, or at 
least that is apparently the case. Every month brings a new 
surprise. This month has been no exception. On the 31st of 
August, North Korea fired a two-stage missile through Japanese 
airspace. Although uncertain at first, I understand now that 
NASA believes the launch placed a satellite, albeit apparently 
a nonfunctional one, into orbit.
    But it seems to me that there are additional motives for 
the launch. First, it was certainly to impress potential 
weapons buyers by forcefully announcing the availability of a 
new product. Second, it was meant to underscore the elevation 
of Kim Jong-il to his newest post and the celebration of the 
50th anniversary of the founding of the DPRK. Finally, to up 
the ante on its outgoing Four Party Talks and the KEDO 
negotiations.
    Whatever the intention, its effects on many in Congress, 
including myself, have been to undermine our already reticent 
support for the present negotiation process with the DPRK. I 
have been a supporter, although somewhat begrudging at times, 
of the Agreed Framework since its inception. The agreement was 
far from perfect, of course. I supported it because I believed 
it was an end to our own best interests and the best interests 
of East Asia. I supported it through its fits and starts--
supported it when the North diverted oil deliveries to the 
military, and supported it when the North showed signs of 
restarting their nuclear program. I supported it because, on 
the whole, the North Korean movement forward in the Four Party 
Talks and cooperation in the nuclear area outweighed the 
North's traditional tendency to push the envelope with us.
    When North Korea fired off its missile, however, and when 
our intelligence community revealed that the North has been 
engaged in both propulsion tests and construction of a large, 
underground facility, it makes it difficult to continue to have 
that kind of support. These acts should drive home the fact to 
us that the North's signature on bilateral and international 
weapons and nuclear agreements is little better than the paper 
it is printed on. It should also cause us to give serious 
consideration to examining alternative ways to dealing with the 
North, since the efficacy of our present system seems highly 
questionable.
    I called this meeting today to examine the recent 
developments in Korea. I also called it because I, and I think 
others, have considerable reservations about our ability to 
deal with the proliferation crisis at this time. I will not 
surprise my colleagues when I say that the phrase ``Clinton 
foreign policy'' is an oxymoron. And this is not a partisan 
viewpoint. I have heard it shared by many of my Democrat 
colleagues. We are not showing the kind of well-planned, 
thoughtful leadership in East Asia that is required there.
    The possible consequence of failing foreign policy in this 
case, though it is far more serious than the simply collapse of 
KEDO, would be the disastrous consequences for us and our 
allies in the entire East Asia region. I hope that we can be 
convinced that adherence to the present Agreed Framework and 
continued negotiations with the North continues to be in the 
best interest of the United States and of South Korea and our 
Japanese allies. Otherwise, as I mentioned on the floor of the 
Senate last week, support for this process will evaporate, and 
quite quickly, in the future.
    So we welcome you here and we want to hear your comments.
    Senator Robb.
    Senator Robb. Thank you, Mr. Chairman. If it is any 
consolation to you--you mentioned the fact that since you have 
chaired this committee for the last 4 years, you have held more 
hearings on North Korea--it occurred to me when I looked at 
Ambassador Gallucci, who will be on panel two, and remember the 
number of meetings that we had under a prior management 
agreement that was changed in 1994 with respect to chairing 
committees in the Senate and the House, but that we too had 
spent more time I believe on this particular topic in this 
particular country and the very serious problems that confront 
us than any other single country that I recall during that 
period.
    And I would have to say that with respect to the support, 
although in some cases either reluctant or with some 
reservations, given some of the incidents that you have 
referred to, I have generally married your position in terms of 
support for the agreement, but I have had some very pointed 
questions.
    Ambassador Gallucci was kind enough to smile and say, I 
hope that you will ask me some again today. I said I would take 
his name in vain a time or two when we were discussing the 
evolution of this particular Agreed Framework, et cetera. But 
the hearing today is certainly timely. The concerns that you 
have raised in your opening statement are extremely important, 
and I look forward to hearing from our witnesses.
    Senator Thomas. Thank you, sir.
    We are pleased to have a distinguished panel this afternoon 
that is very knowledgeable. The Hon. Charles Kartman, Special 
Envoy to the Korean Peace Talks, Department of State. And I 
might add, he has been very much involved very recently in 
these talks. Dr. Kurt Campbell, the Deputy Assistant Secretary 
of Defense for East Asia and Pacific Affairs. Then, on our 
second panel, the Hon. Robert Gallucci, Dean of the School of 
Foreign Service at Georgetown, and former Ambassador in this 
area. So, Mr. Kartman, if you will begin, sir, please.

 STATEMENT OF CHARLES F. KARTMAN, SPECIAL ENVOY, KOREAN PEACE 
                   TALKS, DEPARTMENT OF STATE

    Ambassador Kartman. Thank you very much, Mr. Chairman, 
Senator Robb.
    Mr. Chairman, the last time I appeared before you was to 
seek confirmation as the U.S. Special Envoy for the Korean 
Peace Process. Subsequently, Secretary Albright also appointed 
me the U.S. Representative to the Korean Peninsula Energy 
Development Organization, which is more commonly known as KEDO.
    I want to thank you again for your, and the committee's, 
support. I reiterate to you my intention to consult regularly 
with you as we proceed with North Korea.
    It has been a busy month since I assumed my duties. As you 
know, I just returned from New York, following 2 weeks of quite 
intensive negotiations with the North Koreans. Those 
negotiations resulted in commitments from the DPRK to take a 
number of steps toward resolving key U.S. concerns about North 
Korea's suspect underground construction, its August 31 launch 
of a new, longer-range missile, and its implementation of the 
Agreed Framework.
    Let me make clear that in these, as in past negotiations, 
the U.S. approach is one of seriousness with respect to the 
security risks at stake, coupled with deep skepticism. Let me 
also be clear, we do not trust North Korean intentions. It 
remains indisputable that North Korea represents a major threat 
to peace and stability, not only in Northeast Asia but also in 
other volatile areas of the world.
    We have no illusions about our dealings with North Korea. 
There are no assured outcomes. But I must underscore the 
significance of the commitments we just obtained in New York. 
They will facilitate our ability to deal squarely with the 
issues of great and immediate concern: suspect underground 
construction and the North Korean missile program. It will also 
lead to the quick conclusion of the spent fuel canning, thus 
dealing with an otherwise serious proliferation risk.
    The understanding we have reached also will lead to a 
resumption of Four Party Talks in the near future. We made 
clear in New York that the North Koreans need to satisfy our 
concerns about the suspect construction in the DPRK. This is 
essential for the Agreed Framework. Reaching an agreement to 
deal with our concerns in this area is a top priority. And 
further talks on this issue, which we intend to continue in the 
coming weeks, will address the details of clarifying DPRK 
activities to our satisfaction. Clarification must include 
access to the site. We made it quite plain to the North Koreans 
that verbal assurances will not suffice.
    During our recent talks, in close consultation with our 
South Korean and Japanese allies, we put the North's missile 
program and alleged nuclear activities front and center, 
insisting that the DPRK address U.S. concerns in these areas. 
As a result, North Korea has agreed to resume missile talks 
October 1. During these upcoming negotiations, we will seek to 
curtail North Korea's efforts to develop, deploy and sell long-
range missiles.
    But if there is anything more than dangerous than a long-
range missle, it is a long-range missile with a nuclear 
warhead. That is why we sought and obtained in New York a North 
Korean commitment to resume by mid-September, and to complete 
quickly and without interruption, the canning of their 
remaining spent nuclear fuel. This will put an end to their 
threat of recent months to reprocess this spent fuel.
    Finally, the North Koreans have agreed to convene a third 
round of Four Party Peace Talks by October. It is understood by 
all, including the North Koreans, that the participants must 
move on to practical business, such as tension reduction. We 
remain convinced that firm and steadfast use of available 
channels is the best way to achieve the results we seek with 
respect to North Korea. This is the basic approach we used in 
New York, and it is one that proved valuable during our 
negotiations of the Agreed Framework in Geneva.
    While we are hopeful that the resumption of the various 
talks to which the North Koreans agreed in New York will result 
in concrete benefits, we also firmly believe that the Agreed 
Framework must continue to be the centerpiece of U.S. policy 
toward the DPRK for some time to come.
    Though not perfect, the Agreed Framework is still the only 
viable alternative we have that has a chance to keep North 
Korea's nuclear activities in check as well as keep the North 
engaged on other matters. Without the Agreed Framework, North 
Korea would have produced a sizable arsenal of weapons-grade 
plutonium by now. We have prevented that for close to 4 years, 
and we are committed to ensuring that the DPRK's nuclear 
program remains frozen for the future. This is, without doubt, 
in the interest of the U.S. and our friends and allies in and 
beyond the region.
    We are clearly better off with the North Korean nuclear 
facilities at Yongbyon frozen. To cite specifics, the nuclear 
facilities are under IAEA inspection. Pyongyang has agreed, as 
a result of this past round of negotiations, to can its 
remaining spent fuel. The DPRK is not reprocessing nuclear 
fuel. In other words, the compliance record for the existing 
facilities is good, and a dangerous program at Yongbyon is 
frozen and under inspection. We have made it crystal clear to 
the North Koreans that we expect them to continue to live up to 
these obligations under the Agreed Framework.
    In conclusion, what we seek in our present dealings with 
the DPRK is to avoid a return to the circumstances of 1993 and 
1994, when tensions between North Korea, its neighbors, the 
United States, and the international community were dangerously 
high. We will continue to look for ways to reduce tensions on 
the Korean Peninsula. While also continuing to be firm and 
deliberate with the North. With the proper support, we can go a 
long way toward eliminating North Korea's ability to threaten 
its neighbors and to export that threat to other parts of the 
world.
    There is no question that much depends on North Korean 
intentions. With the limited tools we have, I can assure you 
that we will press the North to take substantive steps to 
comply fully with its obligations, we will push to resolve 
questions about suspect under construction, and we will persist 
in our efforts to eliminate the destabilizing nature of the 
North's missile program, including testing, deployment and 
exports of missiles.
    As we have explained on many occasions, however, this 
strategy will be best served if we honor our own commitments 
undertaken in the Agreed Framework, and specifically the 
provision of heavy fuel oil to the DPRK through KEDO.
    Mr. Chairman, this administration has worked closely with 
this committee and the Congress as a partner in our broader 
policy toward the North, and will continue to do so. Together, 
along with our allies and friends, we can make a difference and 
do what we can to ensure that Koreans in both the North and 
South can live on a peaceful and secure Peninsula.
    Thank you very much.
    Senator Thomas. Thank you, Ambassador. Dr. Campbell.

    STATEMENT OF KURT M. CAMPBELL, PH.D., DEPUTY ASSISTANT 
        SECRETARY OF DEFENSE, ASIAN AND PACIFIC AFFAIRS

    Dr. Campbell. Thank you very much, Chairman Thomas, Senator 
Robb. In the interest of time, let me just submit my full 
statement for the record and just give you a few thoughts, if I 
may. And then I would be happy to take your questions.
    First of all, I would like to underscore that we at the 
Department of Defense stand by what Ambassador Kartman has just 
laid out. One of the benefits of the intensive deliberations 
and negotiations that have taken place, not just with the North 
Koreans, but with all the other countries in the region, has 
been that they have been undertaken with very close interagency 
cooperation. And Ambassador Kartman has worked very closely 
with my deputy and others in the interagency community to 
ensure that we have a very able team effort.
    My statement lays out clearly, Mr. Chairman, the steps that 
the United States has taken, principally since 1994, to improve 
our security status and our capabilities on the Korean 
Peninsula. In fact, I do not think there is any other area in 
the world that we have put as much effort in terms of enhancing 
our deterrence. And that is based on one principal perception, 
at least from our perspective at the Department of Defense. And 
that is that any hope, the hope of diplomacy, rests on the 
reality of our deterrence.
    And our deterrence, Mr. Chairman, Senator Robb, on the 
Korean Peninsula, I can assure you is quite strong. Our 
capabilities there are very credible. And our partnership with 
the ROK and our closer consultations on security matters with 
others in the region has grown considerably in the last several 
years.
    Let me just say that immediately after the missile test, 
Secretary Cohen asked me to go to the region. And what I 
thought I would do is just give you a few brief insights from 
close discussions in Beijing and Japan. In China, we met with 
senior officials both in the military, intelligence and the 
foreign policy community. We made very clear that we were 
grateful for previous support that China had given us. But we 
have also made it clear that now is the time to increase 
efforts behind the scenes directly with North Korea to ensure 
that North Korea comes back to the table in terms of the Four 
Party agreement, and ceases activities that are contrary to 
peace and stability, that are seen as provocative and 
undermining of confidence, such as the missile test.
    In Japan, I must tell you very clearly that our Japanese 
allies and friends saw this missile test as a direct national 
security threat to Japan, a very, very serious matter. And I 
must tell you that the United States shares these concerns 
fully with our Japanese counterparts. Not only are we in close 
consultations with our Korean friends, I think as Chuck has 
indicated--the Korean Foreign Minster will be in Washington for 
meetings with Secretary Albright and other officials tomorrow--
we are also in close consultations with others, particularly 
Japan.
    Next week, in New York, the Minster for Foreign Affairs and 
Defense in Japan will meet with Secretary Albright and 
Secretary Cohen. At that meeting, for the first time, the 
United States and Japan will launch a dual, bilateral effort to 
enhance our cooperation on tactical missile defense systems, 
BMD cooperation. We think that will be an important sense of 
our commitment to ensure peace and stability. And being the 
most technologically sophisticated countries in the world, we 
have high confidence that our cooperation will bear fruit in 
this regard.
    In addition, I think as you know, we have been involved 
over many years in terms of deriving what are called defense 
guidelines, which will enable the United States and Japan, 
working with Korea, to be able to respond to security 
challenges in the Asian-Pacific region. And our hope is to be 
able to move ahead with those, as well.
    So let me just conclude that the period that we are in now, 
Mr. Chairman, is a very intense one. We are having probably the 
most serious, deliberate, around-the-clock deliberations with 
our allies and our interlocutors in North Korea in the recent 
period.
    Thank you.
    [The prepared statement of Dr. Campbell follows:]

               Prepared Statement of Dr. Kurt M. Campbell

    Mr. Chairman, Members of the Subcommittee, I welcome the 
opportunity to represent the Department of Defense in this hearing on 
US policy toward the Korean Peninsula.
    I would begin my statement by emphasizing that in a time of 
uncertainty about the ultimate outcome of tensions on the Korean 
Peninsula, the 44-year old US alliance with the Republic of Korea 
serves as a bulwark against any forces that would seek to disturb the 
existing peace. The stability fostered by this close security 
relationship has benefited not only the US and South Korea, but has 
also permitted much of the Asia-Pacific region to pursue economic 
growth and democratic development.
    In deterring aggression from an often unpredictable and highly-
militarized North Korea, the US has helped create an environment in 
which Asian states could pursue a development course compatible with 
American values and beliefs. This is particularly true in the case of 
South Korea. As a result, the security alliance between the US and the 
Republic of Korea is more than a treaty commitment--it is a close, 
mutually-beneficial partnership built on a shared stake in democracy 
and free markets. Our alliance is an essential element of the strategy 
for achieving our longstanding security goal--a non-nuclear, 
democratic, and peacefully reunified Korean Peninsula. Even after the 
North Korean threat passes, the US will coordinate fully with the ROK 
to maintain a strong bilateral alliance in the interest of regional 
security.
    The need for a combined US-ROK military command and force structure 
to protect our common values is more compelling than ever. Today the 
United States and South Korea confront twin security challenges on the 
Korean Peninsula--deterrence of armed conflict and preparation for 
crises short of war.
    On the first challenge, North Korea's large conventional military 
forces continue to threaten the security of the Republic of Korea. Two-
thirds of its 1.1 million military personnel are positioned within 100 
kilometers of the Demilitarized Zone, with a substantial artillery 
force capable of striking Seoul with little advance notice. In 
addition, as North Korea demonstrated by its recent missile launch, it 
possesses missiles that not only range the entire Peninsula but reach 
far beyond it as well. The US and ROK continue to focus their security 
cooperation on deterring the use of this military capability, whether 
in an all-out attack on South Korea or in a more limited military 
provocation.
    At the same time, deteriorating economic conditions within North 
Korea and a serious food shortage rooted in the structural failure of 
the North's agricultural management system raise questions about future 
developments in the North. In this setting, it would be irresponsible 
for the US and ROK not to consult closely and be prepared for a range 
of contingencies that could occur on the Korean Peninsula. The North 
Korean state and its security apparatus still exercise absolute control 
over their country and show no sign of loosening their grip. But the US 
and ROK cannot ignore the possibility, given the trajectory of North 
Korean domestic developments, that potentially destabilizing conditions 
could arise in the North in the form of famine, massive refugee flows, 
or other disturbing scenarios. The US and ROK would seek to address 
such situations in a way that was least disruptive to regional 
stability and to resolve them at the lowest level of tension possible.
    Without a close defense alliance between the US and South Korea, we 
would not be able to respond effectively to these challenges to our 
security interests. It is also important in a time of transition and 
uncertainty that we give no signals to North Korea that the calculus of 
the US-ROK security relationship, which has served us so well, is 
changing. We will continue to strongly counter any perception in 
Pyongyang that it can drive a wedge between the US and ROK on security 
issues.
    US-ROK combined forces are well-equipped and prepared to deter and, 
if necessary, defeat aggression. But maintaining capable and ready 
forces is a constant process. The US is engaged in ongoing efforts to 
modernize its Peninsular force of about 37,000 military personnel with 
the latest military equipment. These measures have been complemented by 
ROK efforts to outfit its military with the most modern tanks, armored 
personnel carriers, self-propelled howitzers, and fighter aircraft. The 
ROK commitment of resources to defense has been impressive, even during 
the current economic crisis. The ROK maintains 670,000 personnel in 
uniform and has pledged more than $1 billion in cost-sharing support 
for US military forces on the Peninsula from 1996-1998.
    Our security objectives in Korea have been greatly aided by 
diplomatic breakthroughs during the past several years. In particular, 
the engagement process begun by the US-DPRK Agreed Framework, which 
froze the North's nuclear program at Yongbyon and its destabilizing 
potential, has defused the most immediate source of tension and 
deflected what could have been a military confrontation with North 
Korea. With the agreement and our underlying security commitment, we 
have preserved stability on the Peninsula and created an opening to 
pursue the Four Party peace proposal and other issues of concern, such 
as missile proliferation and the recovery of Korean War remains. The 
Agreed Framework has also provided greater access to North Korea and 
some North-South contacts. At the same time, the Agreed Framework has 
been under stress as a result of irresponsible and provocative North 
Korean acts. We are determined to address these concerns with the DPRK 
and ensure its full compliance with the agreement.
    Permanent peace on the Peninsula will be accomplished only through 
diplomatic/political means, and the Agreed Framework and Four Party 
peace proposal begin that process by laying a groundwork for uncoerced 
reconciliation between South and North Korea. We must recognize, 
however, that these are only initial steps in a long and difficult 
course. Our desire for a long-term, stable peace on the Peninsula will 
not be realized overnight, but that reality does not diminish the value 
of current initiatives toward North Korea. The alternative could very 
well be direct conflict with the North, which would take a devastating 
toll in lives arid resources. For this reason, it is important for the 
US to back the Agreed Framework, and the international consortium that 
implements its provisions, with the resources that will permit it to 
succeed.
    Until North and South Korea find a peaceful solution to their 
differences, we remain committed to the terms of the 45-year old 
Armistice Agreement. The Armistice Agreement and its mechanisms must 
remain until an appropriate arrangement supersedes them. Only South and 
North Korea can resolve the division of Korea; therefore, replacement 
of the Armistice by an appropriate agreement can come about only 
through direct dialogue between South and North Korea. The US, while 
addressing near-term security concerns, has worked hard to promote such 
a dialogue.

    Senator Thomas. Thank you, Doctor.
    We are joined by Senator Kerry. Before we have questions, 
Senator, would you have any remarks?
    Senator Kerry. Mr. Chairman, thank you very much. I 
apologize for not being here. I was in Boston for the funeral 
of Kirk O'Donnell earlier. And unfortunately I just got a 
little backed up. And I apologize for that. But I am glad to be 
able to be here. And I would like to just make a brief 
statement, if I can.
    First of all, I thank you and I commend you for once again 
turning the attention of this subcommittee to a timely hearing 
on North Korea. We have had a number of hearings, probably more 
than in other areas, as a subcommittee. And it underscores, I 
think, the importance of our focus on what is happening there, 
or what we believe to be happening there.
    The Senate's overwhelming vote last week on the McCain 
amendment, which effectively cuts off funding for KEDO unless 
the President certifies that North Korea is not actively 
pursuing a nuclear capability, coupled with the adoption of the 
Hutchison amendment, which extends the certification to cover 
sales of ballistic missiles to terrorist countries--both of 
these steps by the Senate, which we shared and took part in, 
reflect the growing concern in Congress about North Korea's 
behavior on the nuclear front.
    In the last month alone, we have learned that North Korea 
is building a secret underground complex, widely believed to be 
a nuclear facility, and that it is continuing to upgrade its 
ballistic missile capability, as evidenced by the launch of the 
previously referred to three-stage TAEPO DONG I missile toward 
Japan. These developments are obviously of huge concern to us, 
because they violate the spirit, if not the letter, of the 
Agreed Framework, and they raise very serious questions about 
North Korean intentions, as well as serious questions about the 
effectiveness of the Agreed Framework as the linchpin of our 
policy toward Pyongyang.
    From its inception, let me underscore, the Agreed Framework 
had a somewhat limited set of objectives. It covered only the 
reactor at Yongbyon and related facilities, not every suspect 
site in North Korea. Moreover, it did not compel the North to 
accept countrywide special IAEA inspections, those inspections 
obviously being crucial to answering the question of whether or 
not the North had been able to produce enough fissile material 
to make a nuclear bomb. And it did that until several years 
after the agreement was signed.
    Despite this limited scope, however, the Agreed Framework 
has produced some positive results: capping the ability of the 
North to reprocess spent fuel with which to build nuclear 
weapons and vastly improving our ability to monitor the North's 
nuclear program--and, I might add, at very minimal costs to the 
taxpayer. But it has not accomplished its underlying strategic 
objective: namely, reducing tensions on the Peninsula and 
creating an incentive for North Korea to abandon altogether its 
nuclear ambitions.
    So now, not unlike our choices with respect to Iraq, we 
have to make a decision as to how to best advance the 
fundamental strategic objective. Do we resuscitate the Agreed 
Framework, hoping that the North will get back on track, or do 
we now take a different approach?
    If we abandon the agreement, we obviously ought to do it 
with a clearer understanding of what we may be losing in terms 
of capping North Korea's reprocessing of spent fuel and of 
intelligence-gathering. If, on the other hand, we come to the 
conclusion the Agreed Framework, even with its limitations, is 
worth retaining, it is critical that we and our allies, Japan 
and South Korea, follow through on our obligations under that 
agreement.
    In our case, that means ensuring the delivery of heavy fuel 
oil for electric power generation; and, in the case of the 
South Koreans and Japanese, funding the construction of light 
water reactors to produce electricity by the year 2003. The 
North has already tried to mask its own bad behavior by 
charging that our commitment to the agreement is not serious, 
because deliveries of fuel oil have been delayed.
    And I remember the hearing we had here, where a number of 
us underscored that it was vital to our foreign policy to be 
able to guarantee that the North could not make that charge, 
that it could not even have the privilege of suggesting that 
there was any rationale that could be laid on our inactions or 
reluctance to fulfill the agreement. And I think that comes 
home to roost to some degree now. That is not an excuse, nor 
does that pardon them from the accountability that we have to 
hold them to for their actions. But we need to avoid this kind 
of situation in the future if the Agreed Framework is to be 
sustained.
    So I think we may be at a critical turning point in our 
policy toward North Korea. And I apologize for missing the 
openings, but I hope that our witnesses in the course of this 
hearing will shed both value and light on the utility of that 
framework at this point in time and what other options may be 
available to us if we conclude that it is insufficient for 
achieving our objectives on the Korean Peninsula.
    Thank you, Mr. Chairman.
    Senator Thomas. Thank you, sir.
    I want to go back in the questioning to the missile and 
what your feeling is there, but maybe even more timely, I have 
before me here a statement from the spokesman at the State 
Department in terms of these talks. It says in the first 
paragraphs: Negotiators have obtained commitments from their 
North Korean counterparts on a range of major issues. Then, as 
you read down, the first one: has agreed to continue serious 
discussion. The second one: has agreed to resume missile talks. 
The third one: has agreed to Four Party Talks.
    The fourth one--well, the point is it sounds like, then, 
these agreements which are lauded as being commitments are in 
fact decisions to talk further. Now we have been talking since 
1953. And so you begin to wonder what does this really mean? 
What does this agreement amount to, more talks?
    Ambassador Kartman?
    Ambassador Kartman. Mr. Chairman, I want to first say that 
that thought occurred to me even as I was dealing with the 
North Koreans. And I did not want to come home with just an 
agreement that there would simply be talks. If we were to 
remove the various talks from this agreement, I think what we 
would have is a reaffirmation that we are going to live up to 
our obligations under the Agreed Framework and they are going 
to finish the canning of the spent fuel. And that, in and of 
itself, would not be such a bad situation to be in.
    Because, going into the talks, they were threatening to 
take steps that would have clearly violated the Agreed 
Framework by reprocessing spent fuel. So that one problem has 
been avoided. On top of that, however, we have indeed won them 
back in a serious way at the table so that we can address other 
issues.
    Now let me cite a few things. The missile talks, we are not 
at this point able to guarantee any outcome of the missile 
talks. But we all agree, we and our allies in the region, all 
agree that the North Korean missile program is dangerous and 
destabilizing. What are we going to do about it?
    Well, we have got to confront them with this. And we have 
got to be at the table with them to do it. I think that simply 
denouncing them in the press is not going to change their 
missile program. We are going to have to get them to the table 
in order to confront them with this. So I do not want to 
devalue this step. After all, the missile talks themselves were 
something the North Koreans did not wish to return to for the 
past 2 years. They would not even come to the table.
    Senator Thomas. Well, I do not think anybody would argue 
that it is necessary to have talks. And that is a valuable step 
forward, particularly with a country like Korea. I guess the 
basic question, however, is, after years of this, of talking, 
and yet continuing to have what we think are breaches of what 
we talked about, do we continue to give them heavy oil? Do we 
continue to have light water reactors? Do we continue to send 
food? Do you continue to do all these things, and the talks go 
on, but the people do not do anything about what you have 
talked about in the talks?
    Now, is that not the basic bottom line?
    Ambassador Kartman. I think that is a very fair question. 
At some point we do have to evaluate results against the costs. 
I agree with that entirely.
    My own view is that the Agreed Framework still has very 
clear value to the American people, in that we have frozen 
facilities at Yongbyon that would be, by themselves, 
extraordinarily dangerous for the entire region. If Yongbyon 
were in full operation, the DPRK would have already reprocessed 
the 8,000 rods of spent fuel that are there. They would have 
reloaded that reactor not once, but several times, and 
reprocessed those loads. We would have had tens of weapons' 
worth of plutonium in North Korean hands. We do not have that 
situation. And so I think that that is something that, for now, 
is a good result.
    Senator Thomas. I am sure. However, I think even though 
obviously this was not a treaty and did not require 
congressional approval, at least in there was the notion that 
the North Koreans would halt operations in infrastructure of 
its nuclear program. Are we assured that has happened? I do not 
think so.
    Ambassador Kartman. This is the present problem that we 
must resolve. I think we have understood quite clearly that the 
Agreed Framework is not going to be able to operate while there 
are serious concerns about what may be a facility that would be 
in violation of the Agreed Framework. This is going to have to 
be resolved.
    If it is not resolved, I think we will be back here telling 
you what the next steps are. However, the first step is to 
resolve this.
    Dr. Campbell. Mr. Chairman, can I add one point to that, if 
I may, please?
    Senator Thomas. Sure.
    Dr. Campbell. It is an extremely fair question to ask 
yourself: What have we bought with this agreement since 1994? 
And I think actually to answer that question appropriately, you 
have to look not just, as Ambassador Kartman has, in terms of 
the actual specifics of the Agreed Framework, but what has 
transpired in the region, as well. And I just want to 
underscore that very quickly.
    First of all, our capabilities on the Korean Peninsula 
since 1994 have grown considerably, number one. Second, our 
policy coordination now, which is very important, between the 
United States and the ROK is probably better than it has been 
at any time, in terms of our relationship.
    Senator Thomas. Our what?
    Dr. Campbell. Our policy coordination, the ability to work 
with the Koreans, the South Koreans, is better than it has been 
since the Korean War. And our ability to cooperate among the 
three nations, the United States, Japan and Korea, about 
possible situations in North Korea has grown considerably.
    At the same time, since 1994, North Korean economic 
performance, North Korean economic capabilities have declined 
precipitously. And indeed, we believe that large segments of 
their population are going without enough food. And so when you 
look at this agreement, on balance, there are other things that 
you have to take into consideration in terms of the surrounding 
region and the position of the United States, which I would 
argue, since 1994, has increased significantly.
    Senator Thomas. I guess in my final question--and I am sure 
there is no answer--we have an army there, a division or 
whatever, 37,000 men and women, we are stronger, our 
relationships are better with the ROK, but North Korea 
continues to do these things. So, do you all say to yourself, 
OK, so you have got your muscles there, you are tougher than 
anybody else, but you are not doing anything about it? They are 
continuing to sort of thumb their nose at you. How do you 
respond to that?
    Dr. Campbell. Again, I would depict the benefits associated 
with the Agreed Framework in a slightly more subtle way. And I 
look at it in terms of our ultimate capabilities, in terms of 
what we would do if in fact we faced a situation where the use 
of force was imminent or necessary on the Korean Peninsula. We 
are in a much better situation today, Mr. Chairman, than we 
were 5 years ago. We will be probably, I would argue, in a 
better situation as the situation develops on the Korean 
Peninsula.
    Senator Thomas. With their submarines and missiles and so 
on, they apparently are not very concerned that you are going 
to use that force.
    Dr. Campbell. I think, as we have stated, each time the 
North Koreans have undertaken one of these reconnaissance or 
insurgent campaigns in South Korea, we have made very clear 
that these steps are provocative, they undermine confidence, 
they are a threat to South Korea's well-being. We believe that 
our ability to cooperate with South Korea on these challenges 
has increased as a consequence.
    Ultimately, on balance, as you face a choice between 
diplomacy and war--and in fact, I think in some respects when 
you trace a lot of these policy decisions down to their root, 
when you find yourself in that determination, I would, on 
balance, suggest to you that where we are today, that the best 
course is to continue this diplomatic course of action for the 
time being.
    Senator Thomas. Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman.
    Help me work through sort of the balance of the options 
that we have. In your testimony you suggest, Mr. Kartman--you 
do not suggest, let me just read it--you say point blank that 
what we seek in our present dealings is to avoid a return to 
the circumstances of 1993-1994, when tensions between North 
Korea, its neighbors, the United States, and the international 
community were dangerously high. We will continue to look for 
ways to reduce the tensions.
    You then, prior to that, said: We also firmly believe that 
the Agreed Framework must continue to be the centerpiece of 
U.S. policy toward the DPRK for some time to come. Given the 
limitations that I described in the Agreed Framework and the 
intentions that Senator Thomas and others have obviously raised 
as a concern, what do you have, if you have the Agreed 
Framework as the centerpiece of our policy. We are delivering 
oil, our allies help build a light reactor, but the North 
Koreans do not allow access to the underground construction or 
other suspect sites, and the missile program essentially 
continues, so that you have both the capacity for a clandestine 
development of fissile material and the delivery capacity going 
on side by side? How does that balance?
    Ambassador Kartman. I would not even try to defend, Senator 
Kerry, a clandestine nuclear program in North Korea. What we 
must do is satisfy ourselves that whatever their original 
intentions may have been with respect to the site in question, 
that it is not going to become a nuclear facility.
    Senator Kerry. Why then not shift the focus, the 
centerpiece of your policy? If the centerpiece of your policy 
continues something that is so limited, don't you need a new 
centerpiece?
    Ambassador Kartman. I think I understand the question. What 
I am trying to say is that if there is a clandestine facility 
to be and we seek to stop it, that would be consistent with the 
Agreed Framework because the Agreed Framework prohibits such 
facilities. I am not trying to split hairs with you.
    Senator Kerry. No, I understand. I follow you. Then, as you 
go through the talk process, when does the talk begin to be 
exhausted and the prospect of a heavier hand come in, and what 
heavier hand should be played? If you could lay out some 
options, I would appreciate it.
    Ambassador Kartman. Well, the first principle, as we try to 
sort this out--and we are trying to do this with you. This is 
not just us sitting in some room somewhere; this is a tough 
problem--the first principle is that we have two allies in the 
region whose security is directly affected by how we handle it. 
And so if we were to take this right up to the brink of war, 
first we would have to deal with the impact of that crisis on 
their own societies and their economies, and potentially, the 
impact of the war on their livelihoods and population.
    The ROK especially, which has a capital that is within 
striking distance of long-range artillery and SCUD missiles, 
would be a potential target of North Korean chemical warheads. 
Estimates of casualties are enormous. I do not want to pretend 
to be the military expert on this panel, but I think that as we 
proceed with our North Korea policy, it should continue to be a 
fundamental principle of ours that we do so in tandem with our 
allies whose support would be absolutely essential should we 
ever get to the point that might involve the use of military 
force. The ROK and Japan are both with us completely each step 
of the way. That is a principle.
    Now, when we start to talk about options, it is fair to say 
that they have a somewhat different reaction to the possibility 
of the outbreak of war on the Korean Peninsula than we do. They 
are, of course, highly supportive of the costly maintenance of 
U.S. forces in the region to deter any potential conflict. And, 
under the circumstances that are clear and unambiguously a 
North Korean aggression, it is very clear that our alliance is 
going to be rock solid.
    However, in pushing something like this, the question of 
nonproliferation or missile proliferation up to the brink, then 
it gets more complicated. I am not trying to speak for them 
here; I am just saying it is a more complicated problem.
    Senator Kerry. Is there any critical time line for 
inspection by which we must achieve access, in your judgment?
    Ambassador Kartman. There are two different ways of looking 
at that. I am not sure that this is the right venue in which to 
get into the kinds of intelligence judgments that would be 
necessary. However, one way of establishing criticality would 
be to estimate when nuclear facilities might actually become 
operational.
    However, another way--and it is the way that we are 
operating under--is at what point would North Korea actually 
have potentially violated the Agreed Framework. At which point 
we would no longer want to come to you and seek your help in 
funding heavy fuel oil.
    Senator Kerry. Can you state to us with respect to your 
policy priorities where you put the issue of access and 
inspection of the suspect sites?
    Ambassador Kartman. What I consider to be common sense is 
that, first of all, we are going to have to be fully satisfied 
with respect to what is going on at that site. Second, since 
there is no trust involved here, North Korea cannot simply 
assure us that it is innocent. Something more than that will be 
required.
    Now, we have discussed already and have made it very clear 
to them that what we have in mind is access to that site. I am 
not going to suggest that they have agreed to unfettered access 
at this point. There is a long and complicated negotiation 
ahead that will deal with the terms and conditions of providing 
that access. After all, the kind of access that would be best 
would be a complete right to go where we want to go without 
restriction. But that kind of right does not come without 
fighting a war first. And even then you do not get to assert 
it.
    Senator Kerry. Thank you, Mr. Chairman.
    Senator Thomas. Senator Robb.
    Senator Robb. Thank you.
    That reminds me that we had a hearing here yesterday about 
the question of access after fighting a war. And it remains one 
of the most contentious issues that we have to deal with. And I 
recognize that this is the subject of future negotiation, and 
you would not want to put all of your bottom-line cards on the 
table, and saying, this is our position and we are not going to 
negotiate. But is it fair to assume that the question of access 
would be an absolute prerequisite or some other condition of 
certifiability, however we get into that particular maze that 
we sometimes enter, in terms of going forward at some point?
    Again, I will not ask you for the precise timeframe, but 
can we assume that without some satisfactory, reliable, 
certifiable means of assessing the situation, that this would, 
in effect, be regarded as, by itself, a full breach of the 
Agreed Framework?
    Ambassador Kartman. Senator Robb, I have already made it 
plain to the North Koreans that access is going to be a 
prerequisite for a solution. And without a solution, then we 
are headed toward the question of the existence of the Agreed 
Framework.
    Senator Robb. What in your judgment would be the 
consequences of a breach in the Agreed Framework, acknowledging 
at this point that we have an obligation to provide 500 metric 
tons of heavy fuel oil and we have only provided I think 152, 
if the current math is correct--whatever? In any event, we are 
in less than full compliance on our end at this point. And many 
would want to negotiate or renegotiate that particular point. 
And maybe Ambassador Gallucci will have more to say about that 
in a few minutes.
    But, in any event, if either side were to be regarded by 
the other as being in clear breach or violation of the 
agreement, what do you believe the near-term consequences would 
be in terms of what kind of changes take place in the dynamics 
at the time that acknowledged breach occurs?
    Ambassador Kartman. It is probably a dangerous thing to get 
myself too far out in the guessing game here.
    Senator Robb. A dangerous thing to come even here to 
testify, in most cases.
    Ambassador Kartman. Indeed. But some of these things are 
probably higher probability than others.
    Senator Robb. That is what I am asking you to deal with.
    Ambassador Kartman. The North Koreans have threatened over 
and over again, with increasing stridency and I would say 
conviction, that if we do not meet our obligations in 
delivering heavy fuel oil, that they would then move on to 
conduct some reprocessing.
    Now, I believe that they are calculating that some 
reprocessing would still not kill off the Agreed Framework. We 
have done everything we can to convince them that there is no 
such thing in our minds as some reprocessing. It is prohibited 
by the Agreed Framework, and it does not say some, a little, a 
lot, or anything of the sort.
    So, I think that the North Koreans would have to go on to 
carry through with their threat. They would take the uncanned 
spent fuel rods as a starting point and reprocess those. We 
would then react by cutting off heavy fuel oil, et cetera. And 
our activities under the Agreed Framework surely would stop. 
And then I think that the next thing that they would do in 
their search to find new leverage, new pressure points, would 
be that they would probably then find other ways to lessen 
their own performance in the Agreed Framework.
    And one of the things that I think would be an early victim 
would be IAEA monitoring of the freeze. So they might not even 
actually break the freeze, but they would break our ability to 
be sure that things were frozen.
    Senator Robb. Well, if I recall, if I may interject for 
just a moment, when it was originally negotiated--and, again, I 
am attempting to paraphrase, if not quote, Ambassador 
Gallucci--it was designed in such a way that each step would be 
verifiable and independent and it would not rely on the good 
faith or trust of any one involved. And if you are suggesting 
that it would simply bring about a cessation in terms of 
forward progress rather than a complete collapse of the Agreed 
Framework, then I understand your answer.
    Ambassador Kartman. No. What I was actually trying to lay 
out, and I will try to be quite clear on this, is that my 
prediction of the probabilities is that we would have a series 
of escalating steps that would result in the complete collapse 
of the Agreed Framework and the reopening ultimately of the 
facility at Yongbyon, the reloading of the reactor, the 
reprocessing of the present spent fuel, and the rapid 
continuation of the entire program at Yongbyon. So that there 
would be a new stockpile of plutonium at Yongbyon, weapons-
usable plutonium.
    Senator Robb. I would like to go back to the question of 
alternative sources of weapons-grade or weapons-usable 
plutonium for just a minute. But before we depart from the 
heavy fuel oil part of the agreement which the United States is 
obliged to fulfill, acknowledging that we are short 340,000-
350,000 metric tons at this point, when do you think, given all 
that you know about the circumstances including the mood in 
Congress, when do you think that will be accomplished and how 
do you think it will be paid for?
    Ambassador Kartman. We have been working very closely with 
the Congress--I believe you are quite aware of the details of 
that--to take money that we have set aside in the State 
Department budget to finish out the 1998 obligation. It remains 
to be seen what the Congress will do with fiscal year 1999 KEDO 
expenditures, but we have been in very intense consultations 
with the Congress on finishing out 1998. And I think that is my 
immediate target.
    Senator Robb. So, in other words, you believe at this point 
you have both the resources and the authority to fulfill the 
current year's requirement for delivery of heavy fuel oil?
    Ambassador Kartman. Yes. We have set aside this money. We 
have been engaged in these consultations. The President and the 
Secretary have the necessary authorities. And we are working 
very closely with the Congress to carry this out.
    Senator Robb. Thank you.
    My time has expired. Thank you, Mr. Chairman.
    Senator Thomas. Thank you.
    Notwithstanding, the Secretary of State told the Congress 
it would never be more than $30 million a year?
    Ambassador Kartman. I believe that then-Secretary Warren 
Christopher's words were that he expected that it would be in 
that range. However, Mr. Chairman, I think this is a fair point 
to raise, and I would like to just note that the range of costs 
for heavy fuel oil have not varied too much. There has been a 
little bit of growth in the annual costs of heavy fuel oil for 
reasons of the market.
    Senator Thomas. Fuel oil prices are about at the lowest 
they have been in history.
    Ambassador Kartman. But we have not had access to the 
lowest possible rates.
    But that notwithstanding, the price of HFO, heavy fuel oil, 
has not really been affected terribly much. However, where we 
have fallen short is that the support of other countries for 
this effort has not met Secretary Christopher's expectations 
that he was relaying to the Congress when he first testified on 
this subject.
    We thought that we would be funding roughly one-half of the 
total fuel oil bill. It looks instead as though we will end up 
funding roughly two-thirds of that total fuel bill.
    Senator Thomas. The most difficult one may be Japan's 
reluctance now to put the $3 billion or $4 billion that they 
were committed to. They have indicated that a second launch 
would be totally unacceptable. What does that mean?
    Ambassador Kartman. Well, of course I will have to let the 
Government of Japan to speak for itself.
    Senator Thomas. I suspect you have inquired, however, have 
you not?
    Ambassador Kartman. We have been in very close touch with 
them all through the weekend and last week. In fact, Secretary 
Albright has spoken with their Foreign Minister on two 
occasions in that period on the telephone, and will be seeing 
him again very shortly.
    They have reaffirmed to us that their obligation to the 
Agreed Framework and to KEDO, which is about $1 billion, is 
still quite firm. What has occurred and what we completely 
understand and completely respect is that they have an 
appropriation process just like ours; that at the very moment 
of a missile test, this is not the time to go to their 
parliament, the Diet, and seek this $1 billion. And so we defer 
to them in their judgment about what is the right political 
timing and the right circumstances in which to do that. But 
they have reaffirmed to us that their commitment is still 
absolutely firm.
    Senator Thomas. It seems to me that overall in this 
discussion about the framework and so on is the real question 
of whether or not the framework is an overall policy with 
respect to North Korea or whether it is sort of peripheral 
thing having to do with energy and having to do with replacing 
the light water reactor, something they were generating 
otherwise. But is it considered to be in Defense, is it 
considered to be in the State Department, is this our policy? 
Or is this a segment dealing with one portion?
    For instance, this one certainly has not completed. Part of 
it was to open up all kinds of trade agreements and reduce 
trade barriers and have all kinds of credit cards being used. 
None of that has happened as far as I know.
    I guess my basic question is, is the framework agreement 
our basic policy or is that a policy here when there is a need 
for a broader policy for the whole operation?
    Ambassador Kartman. Mr. Chairman, I believe, and I know 
that Secretary Albright believes, that the framework agreement 
is not the sum total of what we want to achieve. It is a 
necessary starting point. Without getting some handle on their 
production of fissile material, we could go nowhere. And so the 
Agreed Framework provides us with the platform on which to 
proceed down some other paths. Unfortunately, despite having 
opened up several doors to the North Koreans, they have not yet 
walked through. We are as disturbed by that as you are. But, we 
believe that when dealing with North Korea and in recognition 
of our allies' equities, which are so substantial, that both 
firmness and patience are called for.
    Senator Thomas. Dr. Campbell, when this missile went off a 
few days ago, at least in the press the State Department was 
surprised. The Defense Department said they were not; they knew 
it was going to happen. I do not understand that.
    Dr. Campbell. I frankly am not aware of a statement from 
the State Department saying that they were surprised.
    Senator Thomas. The Secretary of State was quoted as saying 
that. Now I guess that does not mean she said it necessarily.
    Dr. Campbell. Well, let me say that I do not want to parse 
the words of the Secretary of State. I think what she might 
have meant--and I would leave this to Ambassador Kartman--is 
that she is surprised by the fact that North Korea would do 
this thing. However, I am not so sure--and I think as you were 
briefed, as well, Mr. Chairman--we followed the preparations of 
that event about as closely----
    Senator Thomas. We were not surprised at a staged missile?
    Dr. Campbell. Absolutely not. Yes, I mean I can tell you, 
and I think as you know, we every day looked at pictures of 
this launching site. I do not want to reveal--in another 
setting we can go into it.
    Senator Thomas. Have you ever found the satellite?
    Dr. Campbell. Let me just say that the intelligence 
community is meeting as we speak, actually to prepare a 
briefing for your committee tomorrow, about what we think we 
know about the event. And what you reported at the start of 
this hearing about NASA's finding some small body in space, we 
do not have that information yet. In fact, what we have is an 
assessment from our intelligence community that the event is 
still under very close scrutiny.
    What we do know--and this is what is important--is that 
this is a sophisticated, multistage, medium-range ballistic 
missile. It is quite sophisticated. It can carry a payload. And 
it has very real security implications for the region.
    Now, whether it is a satellite or whether it was a missile 
test is an additional question. But what we know so far is 
enough for us to be very concerned.
    Senator Thomas. You did not hear the song on the airwaves?
    Dr. Campbell. I have not. My radio in the car does not pick 
up the patriotic hymns that are apparently being beamed from 
the--I think it is 47 megahertz.
    Senator Thomas. We are going to have to get you a high-tech 
radio.
    Dr. Campbell. Yes, that is correct. [Laughter.]
    Ambassador Kartman. Mr. Chairman, may I make one addition?
    I was in regular and frequent contact with Secretary 
Albright while I was negotiating with the North Koreans, even 
though she was traveling at the time. And I am afraid that this 
is somewhat my fault, because I had reported that we had--being 
aware that there were some preparations for a test going on, we 
had warned the North Korean side not to do this. We had raised 
it very strongly with them. The North Korean side, the 
negotiators, indicated that they had heard our message and had 
sent back something and had understood themselves that their 
message had had some impact. That proved to be incorrect. But 
they had indeed misled us into thinking that they had heard our 
concerns and reacted to them.
    Needless to say, when we heard about the missile test, we 
stalked in there outraged, condemned it, and there were some 
immediate consequences.
    Senator Thomas. So you may have been surprised that they 
did it, but you were not surprised that they had the capacity 
to do it?
    Ambassador Kartman. Exactly.
    Dr. Campbell. Mr. Chairman, can I also make one other 
point? And I just beg a quick indulgence here.
    When you ask about whether about whether the Agreed 
Framework is the centerpiece of all we are doing in North 
Korea, that really is not the case. We are involved--if you 
recall, last year, you had a very important hearing in which 
you asked: Are there security implications for the profound 
economic and humanitarian crises that we are facing in North 
Korea? And of course the answer to that is a very firm 
possibly.
    And so one of the things that we are doing--our traditional 
challenge from North Korea is deterrence, all right, of a kind 
that, you know, we worry about millions of people rolling over 
the DMZ, the kinds of threats Ambassador Kartman is talking 
about, chemical weapons, SCUD's, and long-range artillery. But 
let us also recognize that we face other potential kinds of 
challenges, security challenges--a humanitarian crisis, 
instability.
    So, simultaneously, while we are working obviously this 
very open and very public diplomatic line, we are also involved 
in a wide variety of policy efforts not just with North Korea 
but with China, with Japan and with Korea, which we believe 
ultimately and fundamentally improves our situation in the 
Asia-Pacific region.
    Senator Thomas. Thank you.
    Senator Robb.
    Senator Robb. Very briefly, on the question of the 
alignment between ourselves, the ROK, and Japan on the Agreed 
Framework, and our discussions, the Four Party Talks, that have 
at various times been regarded as possible avenues to more 
progress, could you characterize where those things stand 
generally? I am not sure that the message that I received from 
representatives of those governments in Washington and/or 
foreign ministers and others--and we will have an opportunity 
to get a direct message here in about an hour and a half from 
one of those representatives--but I am not sure that I am as 
sanguine about the complete uniformity of current thinking as I 
would like to be.
    Ambassador Kartman. Well, what I can say is that we are in 
awfully close touch with both of those governments. It is 
pretty clear that the missile test in particular has jarred 
regional capitals, and they are now taking a look at what this 
means for their own security. And that is an important 
dimension that we take very seriously also.
    Senator Robb. But even before the missile test--and I 
assume that there was an exchange, so that they were not 
unaware of the fact that such a test might take place, and I 
will just leave it at that in this forum--I detected some 
hesitancy about the firmness of the commitment to the billion 
dollars of the Agreed Framework from time to time and/or some 
hesitancy at least based on lack of additional guarantees and 
participation in terms of wherewithal by the United States. 
Would you comment on that?
    Ambassador Kartman. Well, I think you will find plenty of 
doubts in Seoul and Tokyo about the wisdom of spending these 
large sums of money to build reactors in North Korea. They have 
exactly the same debates that we have. And so I do not want to 
suggest that there is a uniform point of view in those 
countries. It is a very healthy debate.
    That said, the governments are completely committed to the 
provision of these large sums of money to this project. Now, 
those sums are from the ROK, 70 percent of the cost of building 
the light water reactors, and from Japan it is $1 billion. They 
do have to go through an appropriations process in both 
countries. They are both democracies. And we are going to hear 
elements of this debate played out as they process. But in my 
own mind I do not have doubts about the firmness of their 
commitments to this agreement.
    Senator Robb. What has been the impact of the ceremonies 
that took place in Pyongyang yesterday or the day before--I 
have forgotten now in terms of the passage of time--as well as 
the most recent submarine incident, et cetera? Have those 
events or even the fact that Kim Jong-il did not assume the 
title that his father, the Great Leader, had had--do any of 
those things, for those who like to engage in over-analysis or 
psycho-babble, does that have any relevance that you would want 
to comment on publicly?
    Ambassador Kartman. Well, these are issues that are 
followed much more closely in South Korea, of course. There is 
a great body of expertise there. And their Foreign Minister 
happens to be in town, and we are getting the benefit of some 
of their thinking right now while he is here.
    A couple of points, although this is very early and so this 
is quite preliminary as an analysis. However, I think you would 
probably find in my own remarks at one time or another, I 
predicted that Kim Jong-il was going to take the title of 
President. So, confounding me and other Americans, he has done 
something different. He has become the Chairman of something 
called the National Defense Commission.
    And as we look at the lineup of the current leadership in 
North Korea, there is a disturbingly military cast to it. In 
fact, I think that the South Korea Foreign Minister would tell 
you that they see this as a growing dominance by the military 
over North Korean decisionmaking, notwithstanding the fact that 
there is only one source of real decisions there, and that is 
Kim Jong-il. So I do not take this as a very encouraging sign 
at all.
    Senator Robb. Could I just ask one more question?
    Do we have any expectation that there will be an official 
exchange between a representative of the U.S. Government and 
Kim Jong-il at any time in the near term, or that he will 
appear outside of a heavily secured military installation to 
deliver any message to the North Korean people?
    Ambassador Kartman. He has not been a maker of speeches in 
the past. And of course he has had 30 years of public life as a 
senior personage, and now leader. He tends to deliver short 
exhortations, but not speeches. He has not been someone who has 
been a very person-to-person sort of leader, but rather a 
symbolic figure almost.
    So, no, there is no sign that he is going to change his 
style at this late point. Nor are there any indications of his 
intentions to travel outside the country. He does travel within 
the country. And that travel does include some non-military 
facilities, although those visits are fewer in number than his 
visits to military facilities.
    And we have no expectation of having any American official 
meet with him, although it has been tried on various occasions.
    Senator Robb. Dr. Campbell?
    Dr. Campbell. Senator Robb, everything that Ambassador 
Kartman says about these developments this week we would agree 
with. It looks as if they have retired the jersey of the Office 
of the President, and he will assume the----
    Senator Robb. It has been bronzed.
    Dr. Campbell. Yes. He has assumed these new 
responsibilities of this group that we know actually quite 
little about.
    The other thing, however, that is important to underscore 
is that not only does it appear that Kim Jong-il relies 
increasingly on the military for his advice and for sort of 
decisionmaking authority, not just perhaps on foreign policy, 
but domestic policy--we know that the military is more involved 
in picking crops and other aspects of making what is still 
working in North Korea work--but it is also true that over the 
last 3 years he has managed to replace all those--or most of 
those older generals and marshalls that were put there by his 
father. And so all these guys that are now in senior positions 
of authority, at least on paper, owe their patronage to him.
    And so I just want to underscore that of all the 
developments that we have seen, all right, in the last week and 
a half to 2 weeks, the ones that we are most concerned about 
publicly and the ones that we are talking about, this uncertain 
facility that we want to explore, the missile tests, I will 
tell you that privately the one that I am perhaps most worried 
about is a potential change in the way that decisions are taken 
in North Korea that highlights military perspectives more than 
others.
    Senator Robb. So the one silver lining is there is expected 
stability at this point, if not progress. Thank you.
    Thank you, Mr. Chairman.
    Senator Thomas. Thank you, gentlemen. I appreciate it very 
much. I appreciate your coming.
    Ambassador Gallucci, if you will, sir.
    You can go right ahead whenever you are ready. I am 
impressed with your Western footwear. [Laughter.]

STATEMENT OF ROBERT GALLUCCI, DEAN, SCHOOL OF FOREIGN SERVICE, 
            GEORGETOWN UNIVERSITY, WASHINGTON, D.C.

    Ambassador Gallucci. Mr. Chairman, the weather has changed 
and I thought I would reflect that.
    Mr. Chairman, thank you once again for giving me this 
opportunity to come before the subcommittee.
    I will try to be brief in comments so we can have some 
discussion. I think I want to make three sets of points. One, I 
would say again what the purposes for the Agreed Framework were 
when we negotiated them; two, something about what the 
performance has been with respect to those purposes; and, 
three, my own thoughts on where we go from here.
    First, with respect to the purposes of the Agreed 
Framework, I recollect that we had three, one primary and 2 
secondary. The primary purpose of the Agreed Framework was to 
stop the nuclear weapons program in North Korea. That meant, 
first, making sure that the spent fuel that contained 30 
kilograms of plutonium was not reprocessed; it was recanned and 
stored until it could be shipped out of the country; that the 
research reactor was not started up again; that the two 
production reactors, the 50-megawatt and the 200-megawatt 
reactors, were not completed; and that the reprocessing plant 
was shut down.
    In other words, so that they did not proceed with the 
program that we estimated, within 3 to 5 years, about now, 
would be producing on the order of 150 kilograms of plutonium a 
year, enough for maybe 30 nuclear weapons. That is what we 
wanted to stop. That was the primary purpose of the Agreed 
Framework.
    The secondary purposes I think were, first, to promote a 
dialog between North and South. And that turned out to be 
manifest in our initiative with the ROK, the Four Party Talks, 
essentially to reduce tensions on the Peninsula and improve 
generally the security situation in Northeast Asia. And there 
is language in the Agreed Framework about that.
    The second secondary purpose was to address--and this is 
language from the Agreed Framework by my recollection--other 
issues of concern. These other issues are not mentioned in the 
Agreed Framework, but we told the North Koreans what they were. 
First, their ballistic missile program. Second, their ballistic 
missile export program.
    Third, the forward deployment of their conventional forces. 
And also return of remains from the Korean War. And we had some 
other concerns. But these were not mentioned in the Agreed 
Framework. There was a linkage between these other issues of 
concern and improvement of relations between the DPRK and the 
USA. The normalization of relations was linked to their 
willingness to address these other issues. Those were the 
purposes; now for the performance.
    With respect to the nuclear weapons program, it seems to 
me, from what I know, that the nuclear weapons program that we 
were aware of has essentially been in arrest, as we have said, 
cryogenic arrest. It is frozen. And it is frozen under 
inspection, parts by the United States, because we have been 
active in the canning of the spent fuel, and by the IAEA. The 
ultimate dismantlement of that program would take place over 
time as the elements of the Agreed Framework were played out.
    Two issues have arisen with respect to the primary purpose. 
The first had to do with the few fuel elements that the North 
Koreans threatened to reprocess. Materially, in terms of 
plutonium, not particularly significant, but in principle very 
important. That, I now understand from what has been said by 
Ambassador Kartman, is going to be addressed. The North Koreans 
will permit the final recanning of these elements.
    The other issue that has arisen has to do with the other 
site, the cavern, the underground site. With respect to that--
and this is maybe the most important point--I recall when I 
came before you, Mr. Chairman, some years ago first presenting 
this, I was asked before this subcommittee and elsewhere in the 
Congress whether I could guarantee that there were not other 
facilities in North Korea. And I said, of course not; that I 
had had the opportunity to lead inspections in Iraq for UNSCOM 
and we had uncovered about 90 percent of the nuclear weapons 
program that we did not know about through all our intelligence 
assets--that was one data point.
    A second was that we knew of one country on earth that was 
particularly good at digging holes and tunnels, and that was 
North Korea. And if we put those two data points together, one 
should not be in a position of saying, I guarantee there will 
be no secret facilities. What we can say is the ones we know 
about, we will be able to verify with respect to the provisions 
of the Agreed Framework. But we will have to be vigilant.
    OK, we have been vigilant and we have found something 
apparently. My own view is that if North Korea has a secret 
nuclear program, it would clearly not be consistent either with 
the letter, or with the spirit, of the Agreed Framework--there 
is a confidential minute, which you have access to, Mr. 
Chairman, and that I think would speak to this. Moreover, it 
would certainly not be consistent with the Nonproliferation 
Treaty, and they are still adherents to that Treaty. If there 
is such a nuclear facility and they are pursuing a secret 
nuclear weapons program, it would remove the incentive of the 
United States, South Korea and Japan to participate in the 
Agreed Framework.
    Let me be as clear as I can. It would seem to me that if 
there was a secret nuclear weapons program, either that program 
would end, the issue would be resolved, or the Agreed Framework 
becomes or should become a dead letter.
    With respect to the other two issues, the North-South 
dialog, we have had some Four Party Talks. We have had some 
contacts between North and South, but they have not resulted in 
the kind of reduction in tensions that we had hoped for--even 
with the Republic of Korea adopting its sunshine policy.
    With respect to other issues of concern, the performance 
has been even worse. I refer first to the ballistic missile 
test. And I do not only mean the recent test of a multistage 
missile, a portion of which overflew the main island of Japan, 
but I mean the ballistic missile test in South Asia by Pakistan 
and the ballistic missile test in the Middle East by Iran, 
neither of which would have been possible without the 
assistance of North Korea. So this has been perfectly dreadful 
in terms of performance.
    The issue, then, at this point is what should we do. It 
seems to me that we should go back to the purposes again and 
then look at alternatives--the purposes of the Agreed 
Framework. If the Agreed Framework is serving to prevent a 
nuclear weapons program in North Korea, it ought to be 
preserved. If it is not, it should not be. And that issue needs 
to be resolved.
    Second, with respect to the ballistic missile program and 
the Four Party Talks, it seems to me that we have laid a 
groundwork for addressing these issues, we have had some talks 
with respect to ballistic missiles, and we ought to continue 
with diplomacy and negotiations, and we should continue to link 
their performance or lack of performance with what we do with 
respect to normalizing our relations with North Korea.
    As I say this, I also note that it is irksome, it is 
irritating in the extreme, and it is certainly politically 
difficult to deliver heavy fuel oil on schedule, even to 
provide humanitarian assistance, while the North Koreans are 
providing ballistic missiles to countries in other regions and 
destabilizing them. But I would suggest that if we give in to 
the perfectly natural political urge not to speak to North 
Korea and not to continue with the Agreed Framework, if we try 
to link North Korean performance to ballistic missile 
performance or to other non-nuclear issues--in other words, if 
we try to unilaterally change the understanding of the Agreed 
Framework--we could lose the framework.
    And then the question is, what do we have to replace it 
with? What are the policy alternatives?
    It seems to me that they are quite familiar. There are 
three. We can accept a nuclear weapons program, combined with 
extended-range ballistic missiles in North Korea. Or we could 
attempt to influence the North Koreans through international 
sanctions. Or we could attempt to interdict those programs 
through military action.
    Accepting that capability in North Korea, it seems to me--
and I believe it has been said by this administration--would be 
unacceptable--unacceptable to have a nuclear weapons program in 
North Korea. Second, I do not believe that anybody who has 
looked at it has thought that U.N. sanctions would be effective 
in stopping these programs. And, third, I do not think we 
should contemplate military intervention unless we are prepared 
to engage in a major conflict on the Korean Peninsula.
    In short, it seems to me that the administration is on the 
right course. It is a rough and rocky road. But it is the right 
road. And I do not see any smooth paths to get to where we need 
to go.
    Thank you, Mr. Chairman.
    Senator Thomas. Thank you, sir.
    I guess I do not quite understand what you would suggest 
the administration policy is.
    Ambassador Gallucci. Mr. Chairman, you do not understand 
what I believe the administration policy is?
    Senator Thomas. Well, you said you think they are on the 
right path. And I am saying, where is the path leading? We have 
this agreement, the framework agreement. Beyond that, what are 
we doing? Are we going to bargain with food aid? Are we going 
to just continue to have our forces there to stand them off? I 
do not understand why you think that we are on the right path?
    Ambassador Gallucci. I think we are on the right path, Mr. 
Chairman, because I understand that the administration intends 
that the primary purpose of the Agreed Framework, stopping the 
nuclear weapons program, is continuing to be the measure of 
whether the framework should be supported. In other words, 
either the issue of the cavern is going to be resolved, or the 
underground site or whatever it may be, or if it is not, then 
we are going to move off to another policy. I think that is 
correct.
    Senator Thomas. But this was my question to the others and 
now I guess I should say it to you, is the framework a policy? 
And the answer was no, it is a partial policy. We have a 
framework policy, but we are not sure, for example, what has 
happened to the existing rods. Maybe they will be canned. What 
happens to them? We are not certain as to what has happened to 
the dismantling of reactors and so on. We have not had a 
reduction of barriers to trade as was suggested when we set up 
this framework. We have the fifth largest military in the 
world, the largest per capita military. We have moved more 
military weapons up to the DMZ.
    Now, is the framework agreement dealing with all of those 
things?
    Ambassador Gallucci. Absolutely not, Mr. Chairman.
    Senator Thomas. Then what is?
    Ambassador Gallucci. Mr. Chairman, the policy of the 
administration before and now, as I understand it, was to 
negotiate an Agreed Framework to deal principally with one 
concern. And hopefully, that being an element in a strategy to 
deal with the threat from North Korea, it would put us in a 
position to deal politically with other issues. We wanted to 
promote dialog between North and South.
    Senator Thomas. Right.
    Ambassador Gallucci. We wanted to get confidence in 
security-building measures to deal with the conventional 
imbalance of forces, the forward deployment. We were concerned 
about the ballistic missile program when I was negotiating the 
Agreed Framework. We prioritized these. We drew a line of what 
we absolutely needed to get and what we would do in order to 
get that. We made that call.
    And the gentlemen that preceded me said what I believe to 
be true then and now: the Agreed Framework is not a strategy; 
it is an element in a strategy.
    Senator Thomas. Exactly.
    Ambassador Gallucci. And I believe it fits. I believe it 
addresses the nuclear issue. And to the extent we demonstrated 
it fails to, then it is not a useful element any longer.
    And what I understood them to be saying was that we are 
going to insist that the North Koreans resolve that question. 
The elements of the spent fuel that were not reprocessed, the 
North Koreans have already said they will take care of. I know 
of no problem with the freezing of the facilities. I have 
understood from compliance checked by the IAEA that that has 
been all on track. So with respect to the primary purpose, we 
have identified where the problems are and the standards are.
    Senator Thomas. But let me interrupt. You and I have 
already agreed, as have the others, that that is only part of 
the question.
    Ambassador Gallucci. Absolutely.
    Senator Thomas. And we are faced with the rest of it.
    Ambassador Gallucci. Absolutely.
    Senator Thomas. We are absent a policy is what I am saying 
to you.
    Ambassador Gallucci. Mr. Chairman, that is the part where I 
guess we are diverging.
    Senator Thomas. OK.
    Ambassador Gallucci. It seems to me if you start with the 
nuclear issue and the Agreed Framework and then say, OK, we 
have other concerns with North Korea--we do not like their 
ballistic missile development program, even if they were not 
exporting it, because it threatens not only South Korea but 
Japan and Northeast Asia--but we especially do not like it 
because they are exporting NO DONG's, the version prior to the 
TAEPO DONG which they just tested, to South Asia and to the 
Middle East. So we have grave concerns about this.
    The question is, how do you address this? Well, you address 
this through diplomacy--the only way I know of--apart from some 
other actions, and I already mentioned them, which I do not 
think are particularly prudent at this point. And that is to 
get the North Koreans into a negotiation in which they might be 
willing to give up this program.
    I know of no other strategy. What the Agreed Framework does 
is deal with one issue and give you a political framework, or 
begin to give you a political framework, to help you engage 
them on that issue. But it does not address it by itself.
    Senator Thomas. Well, that is very useful conversation. But 
the fact is, for those of us that watched this happen, we have 
had these talks, we have had these negotiations, we have had 
promises, we have had signed agreements, and yet these other 
things--proliferation of nuclear weapons, missiles--continues 
to go on. So what do you do, just say, well, we want to 
continue to talk?
    Ambassador Gallucci. Mr. Chairman, I must be missing 
something here, because it seems to me, as I look around the 
world, the United States does not always get its way. It does 
not get its way in South Asia, where both countries tested 
nuclear weapons recently. It does not get its way in Iraq, 
where we fought and won a war. That just does not happen that 
simply.
    The only way I know of is you start a negotiation, you make 
a decision whether the use of force is going to be one of your 
options or not. And that is based on a whole lot of 
calculations.
    Senator Thomas. But a wait a minute. Use of force is not 
the only option. We continue to do lots of other things, as 
well.
    Ambassador Gallucci. Indeed.
    Senator Thomas. As if they were complying with everything 
that we asked them to do. And they are not. And it is hard for 
me to understand that.
    Senator Robb.
    Senator Robb. Well, just to continue that question and 
maybe bring it to a close. I assume that you take the position 
that as long as we continue to achieve our objective or meet 
the purposes of the Agreed Framework agreement, that we ought 
to continue to consider that largely in isolation from the 
other matters, particularly with respect to proliferation of 
ballistic missiles, where we have had arguably no success 
whatever.
    And maybe that is a little harsh, but at least the progress 
has been more difficult to document or measure in most of those 
other areas. But you are saying--and I am really not arguing 
with you at this point, because I think you can make the case 
that simply achieving one identifiable, discrete objective 
purpose and continuing to hold that in check, even though all 
the rest of the negotiations or lack of negotiations or success 
is important, in and of itself, and we ought not to give up on 
the one area that we have had success to date simply because we 
are not making progress in other areas that are also vitally 
important to us. Is that a fair summation?
    Ambassador Gallucci. Almost.
    Senator Robb. OK. It is now your opportunity to----
    Senator Thomas. Now, I would not want you to agree with him 
entirely. [Laughter.]
    Ambassador Gallucci. Senator, I think that a decision needs 
to be made, or a calculation needs to be made, continually 
about whether the game is worth the candle.
    Senator Robb. Well, that is really what I was asking.
    Ambassador Gallucci. And what I am trying to say is that up 
to now, for me at least, it seems the answer to that was yes. 
But the North Koreans have done some pretty provocative things 
of late.
    I have special responsibility for the U.S. Government for 
the Russia-Iran relationship with respect to ballistic missiles 
and nuclear weapons. And the North Korean-Iranian connection on 
ballistic missiles is particularly troubling. And I do not need 
to explain here about the implication of ballistic missiles 
being introduced into Pakistan for the Pakistan-Indian 
relationship, particularly recently.
    So this makes it a circumstance in which one wants to look 
very carefully if we are still in a position where we see that 
it is worthwhile to freeze the nuclear issue even though 
something so critically important is not going where we would 
like it to go.
    I would also add that politically to be in a negotiation in 
New York, and while that negotiation is proceeding, to have the 
missile test was--and I say this as a Dean from Georgetown--was 
felt like a finger in the eye at that moment. While, 
incidentally, we are considering humanitarian assistance, too. 
If that missile test had been over Florida or Long Island, we 
could get a little bit of the feeling of how Japan must feel at 
a time like this.
    So I do not believe that any of this is easy. But what I 
was trying to say in my remarks was that this requires real 
political maturity to sit and look hard at this and say, OK, 
this is a very hard thing to take, but let us look at what the 
alternatives are, and are they better?
    If we take a step and we say we are going to recondition 
our participation in the Agreed Framework so that we link 
ballistic missile tests or ballistic missile deliveries to our 
performance under the Agreed Framework, we are trying to add 
more on to it than I negotiated. OK, if we lose the agreement, 
are we better off?
    What happens, then, if the nuclear program that we know 
about starts up again? How else will we deal with it?
    All I am saying is it is very hard to do, to make that 
calculation.
    Senator Robb. You mentioned the word ``alternatives,'' and 
I suggested earlier on I wanted to address the question of 
produced at home as opposed to imported plutonium, weapons 
grade, whatever the case may be. I realize that we get very 
quickly into areas that we should not get too specific, but in 
terms of just the large policy tradeoffs that are involved, do 
you think that the worth of the current freeze in terms of 
denying the ability to provide home-produced enriched fissile 
material or whatever is important enough to exclude an 
alternative sourcing as a--I am not quite sure how to ask the 
question without getting into an area that I do not think we 
want to go--at least not in this venue.
    Ambassador Gallucci. I think I could say something to it 
which would not get us into trouble.
    Senator Robb. OK, please.
    Ambassador Gallucci. All of us who deal with the 
international security situation now are concerned about the 
availability of fissile material, particularly plutonium, from 
the former Soviet Union--particularly.
    Senator Robb. That is obviously what I am thinking of.
    Ambassador Gallucci. And under those circumstances, one 
asks the question of whether it is still worthwhile to make 
indigenous, home-grown fissle material, the centerpiece of a 
policy. And I would note that we estimated that the Iraqis 
spent someplace between $8 billion and $10 billion for those 
facilities that would produce only a relatively small amount of 
highly enriched uranium.
    I believe that while one cannot exclude and one needs to 
worry a great deal about a black market in fissile material, 
that we have not reached a point yet--thank God--that that is a 
reality. Or, to put the implications of that more clearly, that 
it is still worth a great deal to focus on facilities to 
produce fissile material, whether we are talking about Iraq, 
Iran, Libya, or North Korea. I really do think that is true.
    Senator Robb. I think that is a good place to leave it.
    Thank you, Mr. Chairman.
    Senator Thomas. Yes, you are welcome.
    Thank you, Ambassador. I know you need to leave. It is 
interesting, though, the amount of stress and strain that goes 
on. Here is a country the size of Mississippi, with 20 million 
people, surrounded by China, South Korea, Russia, all pretty 
much combined in their efforts to do something. On the other 
hand, you have Iraq and you have Libya, little countries that 
seem to--and we have based 37,000 armed services people there, 
plus we just shipped some more stuff over there, and you wonder 
sometimes if that is where we ought to be focusing as much 
attention as we do.
    And you mentioned Iraq. It seems to me the same thing is 
true with Iraq. And you are something of an expert. We have 
just been going through this idea that we were going to--the 
agreement was that we would have inspections. But when they say 
no, you cannot do that, then what do we do? We just kind of 
back away from it. How long do you do that?
    Ambassador Gallucci. The question I think, Mr. Chairman, is 
making the calculation, again, about whether it is in our 
interest to take the steps to enforce an agreement.
    Senator Thomas. Exactly. And thank you very much for your 
contribution.
    Ambassador Gallucci. Thank you, Mr. Chairman.
    Senator Thomas. We appreciate it.
    Ambassador Gallucci. Thank you, Senator.
    Senator Thomas. The committee will stand adjourned.
    [Whereupon, at 3:35 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              



  Additional Questions for the Record by the Committee to Ambassador 
                           Kartman Submitted

                 Questions Submitted by Chairman Helms

    Question. Can you please tell the Committee at what point the 
administration became aware of the existence of the underground 
complex? At what point did we become aware of the activity at the 
complex, which, according to recent press reports, involves as many as 
15,000 people?

    Answer. North Korea's practice of tunneling and building 
underground facilities for military programs is well known. The 
intelligence community tracks activities of concern in North Korea on 
an ongoing basis, but underground construction can be hard to detect 
and even harder to monitor, especially in such a closed society as 
North Korea. Although we have been monitoring the construction in 
question for some time, we did not develop our conclusions about its 
possible functions until recently. The intelligence community 
immediately presented its findings to senior Administration officials 
that the North was building a facility underground that raised concerns 
related to North Korea's commitments under the Agreed Framework. Copies 
of that finding have been shared with Congress.
    I would be happy to provide a more detailed response to this 
question on a classified basis.

    Question. When did we let the North Koreans know we knew about the 
underground complex? What was their reaction and explanation?

    Answer. We informed the North Koreans of our suspicions on August 
21, the first day of our bilateral negotiations in New York. The North 
Koreans told us that it was a civilian site. We made clear to them that 
we had serious concerns about the nature of the site and told them in 
no uncertain terms that verbal assurances would not suffice and that 
access to the underground construction would be necessary to satisfy 
our concerns.

    Question. Does the Administration have an official view as to 
whether the existence of the underground complex, or the activity 
there, constitutes a violation of the Agreed Framework?

    Answer. While we have not concluded that there has been a violation 
of the Agreed Framework, the U.S. nonetheless has serious concerns 
about the suspect underground construction which must be resolved. This 
was a major focus of our recent discussions with the North Koreans in 
New York. We have made it crystal clear to the North Koreans that they 
must live up to their obligations under the Agreed Framework.
    As a result of the talks in New York, North Korea agreed to hold 
further serious discussions to clarify the nature of the suspect 
underground construction. We have told the North Koreans that any such 
clarification cannot be limited to verbal assurances, but will have to 
include access. Arrangements for these discussions are being made with 
the North Koreans through the New York channel.

    Question. Regardless of whether it violates the Framework, does the 
administration agree that work at a secret underground nuclear complex 
by North Korea is a matter of grave national security concern to the 
United States?

    Answer. North Korea's intentions with respect to the suspect 
underground construction are a matter of serious national security 
concern. Our suspicions about this construction must be resolved, and 
we have told the North Koreans that access to the site is essential to 
doing so.

    Question. Doesn't the fact that the North Koreans were engaged in 
this activity with the Agreed Framework in place call into question 
their trustworthiness?

    Answer. Verification, not trust of North Korean intentions, is the 
basis of our policy. For this reason, the Agreed Framework is 
structured as a series of interlocking reciprocal agreements. For 
instance, they must maintain a freeze on all nuclear activities at 
Yongbyon to maintain the flow of our HFO deliveries.
    Regarding the light-water reactors, before key nuclear components 
can be installed in the first reactor structure, the DPRK must 
cooperate with the IAEA to verify its initial declaration of nuclear 
material and implement full-scope safeguards, including challenge 
inspections anywhere in the country, as required. If this verification 
is not made, the DPRK will not receive the key reactor components, 
without which the reactor cannot function.

    Question. And by extension, doesn't this fact call into question 
the fundamental viability of the Framework, since it is based in part 
on trust (i.e., the Framework Agreement doesn't necessarily cover any 
and all nuclear activity in North Korea and it has not yet led to IAEA 
special inspections of North Korea's suspected waste sites, and won't 
for at least another year)?

    Answer. The Agreed Framework is not based on trust, but on 
reciprocal actions. Under the Agreed Framework, North Korea is 
committed to shutting down its nuclear activities at the graphite-
moderated reactors and related facilities at Yongbyon. Upon completion 
of the first LWR project, North Korea's graphite-moderated reactors 
will be dismantled. Upon completion of the LWR project, all of North 
Korea's spent fuel will be disposed of in a safe manner that does not 
involve reprocessing in the DPRK. When the LWR project is nearly 
complete, but before delivery of key nuclear components, the DPRK must 
come into full compliance with its safeguards agreement with the IAEA, 
which includes satisfying IAEA concerns about Yongbyon and other sites.
    In short, the Agreed Framework is designed as a step-by-step 
arrangement that can be stopped, if necessary, by either side at any 
time. It also provides a means to raise issues of key concern, and 
specifies that improvement in bilateral relations will depend on 
progress on such issues. The U.S. has major concerns about suspect 
underground construction in North Korea. These concerns must be 
resolved to our satisfaction. We have made it clear to the North 
Koreans that any clarification must go beyond verbal assurances and 
will have to include access. We have also told them that failure to 
resolve our concerns about the suspect construction would call into 
question the viability of the Agreed Framework.

    Question. Since the beginning, the issue of the cost of follow-on 
items for the Light-Water Reactors in North Korea has been somewhat 
cloudy. Do we now have a firm estimate of the cost, and are we any 
closer to an agreement as to who will pay for items such as supplying 
the fuel for the reactors, storing and removing fuel, training of 
personnel and upgrading North Korea's power grid?

    Answer. While the final step of the burden sharing agreement among 
KEDO Executive Board members (the U.S., Republic of Korea, Japan, and 
the European Union) has not been formalized, they have agreed on a cost 
estimate of $4.6 billion for construction of the two proliferation-
resistant, light-water reactors. The Republic of Korea is committed to 
paying 70% of the total cost, with Japan pledging to provide the yen 
equivalent of $1 billion. Fuel for the first of the light-water 
reactors will be included in the cost of the LWR project, as will the 
cost of providing a comprehensive training program in accordance with 
standard nuclear industry practice for the DPRK's operation and 
maintenance of the LWR plant. The cost of storing and removing spent 
fuel, and of upgrading North Korea's power grid, will be borne by the 
DPRK.

    Question. According to a New York Times article dated September 10, 
we apparently have reached a new deal with North Korea that promises 
them more food aid. Is this correct?

    Answer. Although the North Koreans raised the issue of additional 
food assistance at our recent New York talks, as they do each time we 
meet, our recent decision to provide additional food assistance was in 
response to the World Food Program's ongoing appeal, and was made, as 
all such decisions are made, on a purely humanitarian basis. We have 
repeatedly told the North Koreans that we will not link our food aid to 
political conditions. Nonetheless, the North Koreans continue to seek 
to draw such linkages. We have briefed these food aid decisions to the 
staff of re1evant committees, including the SFRC.

    Question. If the answer to the previous question is yes, what is 
the sequence of events under the agreement? Will the aid precede any of 
The commitments by North Korea, such as giving us eventual access to 
the underground site? When do we expect to be granted access to the 
site by the North Koreans? How can we be assured that the North Koreans 
won't sanitize the site before we access it?

    Answer. We expect to make the shipments of additional humanitarian 
food assistance announced on September 21 in several tranches over the 
course of the remainder of the year.
    We are currently making arrangements to resume discussions with the 
North Koreans on the suspect underground construction. We expect the 
talks on access to the suspect construction to be lengthy and complex. 
We have made clear to the North Koreans that further progress in 
improving bilateral relations and our implementation of the Agreed 
Framework requires clarification and satisfaction on the nature of the 
suspect underground construction. We also continue to make clear to 
them that the DPRK must live up to its obligations under the Agreed 
Framework.
    On the question of the North Koreans sanitizing the site before we 
access it, let me say that we have the same concerns and for that 
reason are monitoring the site closely.

    Question. In response to North Korea's recent launch, Japan has 
frozen aid to North Korea for both food and KEDO, has suspended charter 
flights, and talked of beefing up its missile defenses. This apparently 
is a much tougher response than our own. What is the Administration's 
opinion of the Japanese policy?

    Answer. We share Japan's strong concerns about the North Korean 
missile launch. The launch constituted a threat to regional stability 
and has serious implications for our security arrangements in Northeast 
Asia. The U.S. will raise the full range of our concerns about North 
Korea's indigenous missile activities and exports in missile talks with 
North Korea on October 1 in New York.
    The U.S., ROK and Japan continue to consult closely on the nature 
and implications of the missile launch. Secretary Albright met with her 
South Korean and Japanese counterparts September 24 in New York to 
consult on North Korea, and the DPRK missile launch was a major topic 
of their discussions.
    In the aftermath of the missile launch, Japan postponed signing the 
burden-sharing agreement for the light-water reactor to be constructed 
by KEDO. Nonetheless, all KEDO member governments--including Japan--
have reaffirmed since the missile launch their support for the Agreed 
Framework and commitment to KEDO. A copy of that reaffirmation is 
attached.

                                 ______
                                 

                          U.S. Department of State,
                                   Office on the Spokesman,
                         For Immediate Release: September 24, 1998.

                 Joint Statement on North Korea Issues

                           September 24, 1998

                                   by

               The Minister for Foreign Affairs of Japan

   The Minister of Foreign Affairs and Trade of the Republic of Korea

                                  and

         The Secretary of State of the United States of America

          Minister for Foreign Affairs Masahiko Koumura, Minister of 
        Foreign Affairs and Trade Hong Soon-young, and Secretary of 
        State Madeline K. Albright met in New York on September 24, 
        1998 to discuss and coordinate policies regarding North Korea.
          The three Ministers confirmed the importance of maintaining 
        the Agreed Framework signed between the United States and North 
        Korea in October 1994 and the Korean Peninsula Energy 
        Development Organization (KEDO) as the most realistic and 
        effective mechanisms for preventing North Korea from advancing 
        its nuclear program. They urged North Korea to implement fully 
        the Agreed Framework including the continued freeze of nuclear 
        activities under IAEA monitoring and to remove any doubts about 
        its nuclear program. Secretary Albright explained that the 
        recent U.S.-North Korea talks resulted in mutual reconfirmation 
        of U.S. and North Korean commitment to the Agreed framework. 
        Ministers Koumura and Hong reaffirmed their support for the 
        Agreed Framework and all three ministers reiterated their 
        commitment to KEDO. The three Ministers agreed to continue to 
        consult and coordinate fully and Secretary Albright stated that 
        the U.S. would continue to fully respect the positions of the 
        governments of Japan and the Republic of Korea in implementing 
        the Agreed framework, including the Light Water Reactor 
        project.
          The three Ministers deplored North Korea's recent missile 
        launch. They agreed that North Korea's missile development, if 
        unchecked, would adversely affect the peace and security of 
        Japan, the Republic of Korea and the entire Northeast Asia 
        region, and that it raised serious concerns about the 
        proliferation of weapons of mass destruction and their delivery 
        systems. They shared the concern and regret expressed by the 
        members of the United Nations Security Council over North 
        Korea's launching of a missile without prior notification to 
        the countries in the region, which was irresponsible and in 
        disregard of international safety norms.
          They also reviewed the results of talks between the United 
        States and North Korea held from August 21 to September 5, 1998 
        in New York. These results included resumption of U.S.-North 
        Korea missile talks, an important forum at which to address the 
        North Korean missile issue. Secretary Albright expressed the 
        determination of the United States Government to seek through 
        those talks the cessation of North Korean flight-testing, 
        production, deployment, and export of missiles and related 
        material and technology. Ministers Koumura and Hong expressed 
        their support for these U.S. efforts and stressed the 
        importance of North Korea's committing to tangible steps in the 
        missile talks.
          The three Ministers also reviewed other, no less important 
        steps that the United States and North Korea have agreed upon 
        recently. They include North Korean Agreement to continue 
        serious discussions to clarify the nature of suspect 
        underground construction in North Korea, to complete promptly 
        the canning of the remaining spent fuel rods at Yongbyon, and 
        to hold a third plenary meeting of the Four Party Talks and 
        discussions on terrorism. The three Ministers agreed to consult 
        closely in all aspects of these talks.
          They reaffirmed the importance of close consultation 
        concerning policies toward North Korea.

                                 ______
                                 

    Question. Should Japan decide that further aid to North Korea is 
not in its interest, what kind of ramifications will this have on our 
own policy toward North Korea?

    Answer. As described above, we consult very closely with the 
Government of Japan, as well as the Republic of Korea, as the three 
countries address the challenges presented by the North Koreans to the 
security of Northeast Asia. Japan has publicly reaffirmed since North 
Korea's missile launch its commitments to continued commitment to KEDO 
and support for the Agreed Framework, which all three countries 
recognize as critical to maintaining peace and stability on the Korean 
Peninsula.

                               <all>


</pre></body></html>
